         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       EPA’s Human Resources Management
       System Did Not Deliver Anticipated
       Efficiencies to the
       Shared Service Centers

       Report No. 09-P-0206

       August 11, 2009
Report Contributors:             Eric Lewis
                                 Dwayne Crawford
                                 Rae Donaldson




Abbreviations

DFAS         Defense Finance Accounting Service
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
HR           Human Resources
HR-LoB       Human Resources Line of Business
IT           Information Technology
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPM          Office of Personnel Management
SSC          Shared Service Center
                       U.S. Environmental Protection Agency                                                    09-P-0206
                                                                                                          August 11, 2009
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review              EPA’s Human Resources Management System
We assessed the capability of       Did Not Deliver Anticipated Efficiencies to the
the U.S. Environmental              Shared Service Centers
Protection Agency’s (EPA’s)
human resources (HR)
management system to provide        What We Found
the information technology (IT)
support necessary for successful    The EPA SSC initiative lacked the necessary management controls to achieve
implementation of EPA’s shared      efficiency and effectiveness. In our draft report, we noted that EPA’s Office of
service center (SSC) initiative.    Administration and Resources Management (OARM) lacked necessary cost
                                    analysis and OMB approval to upgrade PeoplePlus with an automated workflow
Background                          feature in support of the establishment of the EPA SSCs. These actions were
                                    contrary to OARM’s own 2007 Business Case Study (Shared Service Center for
In June 2008, EPA began             Human Resources) that stated EPA needed to upgrade its HR management system
consolidating HR transactional      to make the SSCs successful. EPA launched the SSCs in June 2008 before
services under three EPA SSCs.      obtaining the necessary upgrades. Subsequent to the release of our draft report in
EPA expected the consolidated       April 2009, EPA changed its approach to achieving anticipated efficiencies at its
SSCs to provide better results at   SSCs. EPA has determined that it is not cost-effective to update PeoplePlus.
a lower cost. EPA had               Further, EPA’s testing of an automated workflow feature to help improve HR
documented the necessity of         processing in support of EPA SSCs has proven unsuccessful, causing the Agency,
upgrades to its HR management       in part, to abandon the project.
system to achieve these
efficiencies. The Office of         EPA now looks to find an OPM-certified HR Line of Business (LoB) provider who
Management and Budget               can provide the required HR IT support. This decision would be in agreement with
(OMB) has mandated that             the previous recommendation included in our draft report pending a detailed cost
agencies migrate to an Office of    analysis for migration. However, EPA spent considerable time and funds pursuing
Personnel Management (OPM)-         the former options. We concur with the Agency’s decision to migrate to a certified
certified shared service center
                                    HR-LoB provider since it cannot justify upgrading PeoplePlus. However, we
(certified SSC) unless an agency
can show that it can maintain its   believe that EPA must seek approval from OMB regarding its current hybrid
own operations at a lesser cost.    approach whereby the Agency would retain its current HR personnel who would
                                    use an OPM-certified provider’s HR system.
For further information,
Contact our Office of               What We Recommend
Congressional, Public Affairs       What We Recommend
and Management at                   Going forward, EPA needs to have the appropriate analysis, actions and approvals
(202) 566-2391.
                                    in place to ensure the effective management of the Agency’s HR function.
To view the full report,            Therefore, we recommend that the Assistant Administrator for OARM: (1) obtain
click on the following link:        approval from OMB for the level of migration intended by EPA; (2) develop a
www.epa.gov/oig/reports/2009/       baseline cost estimate to determine and secure necessary funding for migration to a
20090811-09-P-0206.pdf              certified SSC; (3) establish realistic milestones with OMB for migration to a
                                    certified SSC; and (4) document the risk of using PeoplePlus until EPA migrates to
                                    a certified SSC.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                         August 11, 2009

MEMORANDUM

SUBJECT:               EPA’s Human Resources Management System Did Not Deliver
                       Anticipated Efficiencies to the Shared Service Centers
                       Report No. 09-P-0206



FROM:                  Bill A. Roderick
                       Acting Inspector General

TO:                    Craig Hooks
                       Assistant Administrator
                       Office of Administration and Resources Management

This is the final report of the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA) assessing the capability of EPA’s human resources management
system to help achieve anticipated efficiencies from EPA’s shared service centers. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures. The Office of Administration and Resources
Management provided comments to our draft audit report on May 29, 2009. The OIG evaluated
these comments, and where appropriate has made necessary changes in this report. We have
included the response and the OIG’s evaluation in Appendix A.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time is – $152,524.00.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a formal corrective action plan for agreed
upon actions, including milestone dates. We have no objection to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

Should you have any questions, please contact Eric Lewis, Director, Special Reviews, at
202-566-2664 or lewis.eric@epa.gov.
EPA’s Human Resources Management System Did Not                                                                              09-P-0206
Deliver Anticipated Efficiencies to the Shared Service Centers



                                   Table of Contents

Chapters
   1     Introduction ...........................................................................................................        1

                 Purpose ..........................................................................................................      1
                 Background ....................................................................................................         1
                 Scope and Methodology .................................................................................                 2

   2     EPA’s Human Resources Management System
         Did Not Deliver Anticipated Efficiencies .............................................................                          4

                 EPA Options ...................................................................................................       4
                 Former Approach ...........................................................................................           5
                 New Plan and Challenges ..............................................................................                8
                 Conclusion ......................................................................................................     9
                 Recommendations .........................................................................................            10
                 Summary of Agency Response and OIG Evaluation......................................                                  11

   Status of Recommendations and Potential Monetary Benefits .................................                                        12



Appendices
   A     Agency Response to Draft Report and OIG Evaluation ....................................                                      13

   B     Distribution ............................................................................................................    20
                                                                          09-P-0206




                            Chapter 1
                            Introduction
Purpose
      The Office of Inspector General (OIG) assessed the capability of the human
      resources (HR) management system of the U.S. Environmental Protection
      Agency (EPA). We sought to determine whether the system could provide the
      information technology (IT) support necessary for successful implementation
      of the Agency’s shared service center (SSC) initiative and to achieve
      anticipated efficiencies.

Background
      The Office of Administration and Resources Management (OARM) is
      responsible for managing EPA’s human resources functions as well as
      developing Agency-wide policy, planning strategically, and directing EPA's
      human resources programs. As such, in June 2006, EPA’s Chief Financial
      Officer directed OARM and Region 9 to develop a plan to study consolidating
      and streamlining EPA’s human resources functions. These functions were
      processed at 15 human resources offices located throughout the country.
      Senior managers from OARM and Assistant Regional Administrators, who
      oversee human resources functions in the 10 regional offices, directed the
      study.

      In May 2007, OARM issued EPA’s draft Business Case Study entitled Shared
      Service Center for Human Resources (2007 Business Case Study), based on
      the results of the internal analysis by OARM senior managers and Assistant
      Regional Administrators. The Business Case Study suggested consolidating
      the Agency’s HR transactional-type functions into two or three EPA SSCs.
      In January 2008, the former Assistant Administrator for OARM announced
      that EPA would be consolidating HR transactional services under three EPA
      SSCs to improve the timeliness and quality of customer service and to
      standardize work processes within EPA. The selected SSC locations were Las
      Vegas, Nevada; Research Triangle Park, North Carolina; and Cincinnati,
      Ohio. The former Assistant Administrator announced that transition to the
      EPA SSCs would begin in June 2008, with consolidation efforts expected to
      last from 12 to 24 months. According to the Agency’s SSC Implementation
      Plan, the final phase of transition is targeted for completion on December 31,
      2009.




                                      1
                                                                                               09-P-0206


             The Agency’s 2007 Business Case Study indicated significant IT upgrades to
             the Agency’s HR management system would be necessary if the EPA SSCs
             were to succeed and operate efficiently. The IT upgrades listed were:

                     Converting to an automated standard form 52 (Request for Personnel
                      Action) feature, known as “workflow.” 1
                     Processing automated awards.
                     Implementing EZhire XI options to track staffing actions.
                     Implementing PeoplePlus modules for Employee Relations and Health
                      and Safety.
                     Establishing a standardized benefit system with regional and field
                      office input.
                     Purchasing learning management system modules for training and
                      development.

             EPA stated that the SSC effort is also intended to align the Agency with the
             HR-Line of Business (HR-LoB) initiative of the Office of Management and
             Budget (OMB). OMB launched this initiative in 2004, to create a
             government-wide, modern, cost-effective, standardized, and interoperable HR
             solution, to provide common core functionality to support strategically
             managing human capital through establishing certified public or private sector
             SSCs.2 OMB selected the Office of Personnel Management (OPM) as the
             HR-LoB managing partner due to its core mission and prior experience
             managing E-Government initiatives.

Scope and Methodology
             We conducted our audit between December 2007 and April 2009 in
             accordance with generally accepted government auditing standards. Those
             standards require that we adequately plan for the audit; properly supervise
             audit staff; obtain sufficient, appropriate evidence to provide a reasonable
             basis for our findings and conclusions; and prepare audit documentation
             related to planning, conducting, and reporting for each audit. We believe that
             the evidence obtained provides a reasonable basis for our findings and
             conclusions based on our audit objective. Our audit objective was to
             determine the feasibility of OARM implementing the proposed EPA SSC
             initiative from an IT perspective, given the critical support necessary from the

1
  The Agency describes workflow as an automated set of relationships between the activities in a business
process from start to finish. Such capabilities would enable EPA to efficiently automate the flow of
information throughout the Agency, crossing both application and functional boundaries. The goal of
Workflow was to obtain a high return on investment by automating manual, time intensive or paper
intensive processes.
2
  The five certified public sector SSCs are the Defense Department, U.S. Department of Agriculture’s
National Finance Center, the U.S. Department of Health and Human Services, the Interior Department’s
National Business Center, and the Treasury Department. The private sector SSC contracts have been
awarded to Accenture, Allied, Carahsoft, and IBM.


                                                    2
                                                                   09-P-0206


Agency’s HR management system for these SSCs to succeed. To achieve our
objective, our field work analysis involved the following:

      Interviewing senior Agency officials involved with the planned
       implementation of the EPA SSCs.
      Interviewing program officials involved with ensuring IT capabilities
       necessary to support the EPA SSCs.
      Interviewing the PeoplePlus Project Officer and Contracting Officer to
       discuss IT support for the EPA SSCs.
      Interviewing OMB officials involved in implementing the certified
       public/private sector SSC concept.
      Obtaining and reviewing OMB criteria relative to the Government-
       wide HR-LoB initiative.
      Obtaining and reviewing documentation supporting the Agency’s
       decision to implement EPA SSCs that included EPA’s May 2007
       Business Case Study, SSC Implementation Plan, IT Workflow
       Implementation Plan, Performance Work Statements under the
       PeoplePlus operations and maintenance contracts, EPA’s June 2007
       HR-LoB Analysis, and OARM’s Reorganization Proposal for EPA
       SSCs.
      Analyzing OARM’s responses to OIG questionnaires regarding the
       overall aspects of EPA’s SSC initiative.




                                3
                                                                                                09-P-0206




                                         Chapter 2
      EPA’s Human Resources Management System
         Did Not Deliver Anticipated Efficiencies
               The EPA SSC initiative lacked the necessary management controls to achieve
               efficiency and effectiveness. Through consolidating HR transactional services
               under EPA SSCs, the Agency’s anticipated efficiencies included improving
               the timeliness and quality of customer service, standardizing work processes,
               and positioning the Agency for migration via OMB’s HR-LoB initiative. To
               achieve these efficiencies, EPA was relying on critical IT support from
               PeoplePlus and deployment of an automated business processing feature
               known as “workflow.” However, PeoplePlus faced increased risks to its
               security and stability because the software vendor no longer supported the
               current version and had required that the Agency upgrade to a newer software
               version.3

EPA Options
               In December 2008, an OARM manager told us that EPA was considering two
               options. The first option was to upgrade the current PeoplePlus-HR software
               to PeopleSoft v. 9.0 to meet requirements by the software vendor. For this
               option, we recommended that EPA obtain OMB approval to upgrade HR
               systems. Under the HR-LoB initiative, OMB stated that no agency could
               upgrade HR systems without OMB approval. The second option was to
               migrate Agency HR IT services to a certified public or private sector HR SSC
               provider. According to OARM management, that migration would require
               EPA to use the providers systems. OMB guidance indicates that the providers
               have the IT staff to operate the systems and the agencies should develop their
               competitions based upon the number of full time equivalents to be replaced.
               For this option, we recommended that EPA develop a baseline cost analysis to
               determine the cost of the option and to obtain the funding necessary for
               migration. We concluded that EPA must obtain documented approval from
               OMB to perform the limited migration. The baseline cost estimate could be
               used to determine if EPA’s plan was less expensive than full migration.

               In response to our draft report, EPA stated it was not in the best interest of the
               Agency and cost-prohibitive to update the PeoplePlus system. OARM
               management also stated that the testing of an automated workflow model
               proved unsuccessful, prompting the Agency, in part, to abandon that project.
               The Agency indicated it will now pursue the second option, to find an OMB-
               certified HR-LoB provider for the necessary HR IT support. However, EPA

3
    PeoplePlus is based on the Federal PeopleSoft commercial off-the-shelf (COTS) application version 8.3.


                                                      4
                                                                                         09-P-0206


            spent considerable time and funds pursuing the former option. We concur
            with the Agency’s decision to migrate to a certified HR-LoB provider since it
            cannot justify upgrading PeoplePlus. However, we believe that EPA must
            seek approval from OMB regarding its current hybrid approach whereby the
            Agency would retain its current HR personnel who would use an OPM-
            certified provider’s HR system. 4 Joint OMB/OPM guidance requires that
            agencies consult with OMB if they pursue a migration involving more than 10
            full-time equivalents.5 This guidance is designed to help agencies describe,
            prepare for, and manage migrations. However, neither OMB nor EPA could
            produce documentation stating that OMB had approved any EPA migration
            plan. Consequently, until EPA migrates to a certified SSC, the Agency will
            continue to operate on outdated and unsupported application software, which
            will not produce the efficiencies anticipated from the EPA SSCs.

Former Approach
            EPA began consolidating its HR transactional-type functions under Agency
            SSCs in June 2008 to improve the timeliness and quality of customer service
            and to standardize work processes within EPA. Although EPA management
            determined significant IT upgrades to the Agency’s HR management system
            would be necessary if the EPA SSCs were to succeed, the Agency created the
            SSCs before obtaining the upgrades. These upgrades included enhancements
            to PeoplePlus and the development of an automated business processing
            feature known as workflow. EPA’s stated its consolidation efforts were also
            to align the Agency with OMB’s HR-LoB initiative for later migration to an
            OPM-certified SSC.

            EPA’s launch of its SSCs was risky given that it had no assurances that the
            upgrades were achievable. Further, EPA could not produce documentation
            showing that OMB approved EPA’s migration plan. OARM management
            stated that EPA chose this plan for migration because EPA wanted to maintain
            its own HR staff. The ultimate nature of the EPA migration rests with OMB;
            however, EPA has not developed the baseline cost estimate to show the cost
            of this option and has not obtained documented approval from OMB that the
            limited migration would be acceptable. We contacted OMB and could not get
            OMB to state that any EPA migration plan was acceptable. Therefore, we
            consider EPA’s former migration plan to be high risk because no evidence
            exists to show it is cost-effective or that OMB would approve the specific
            action.



4
  Rather than showing that an EPA option is cost effective, EPA favors a hybrid approach where the
Agency keeps its HR personnel who would use an OMB/OPM-approved HR system. PeoplePlus would be
a necessary interface to the approved system because of EPA Superfund requirements.
5
  Joint guidance issued by the Deputy Director for Management, OMB, and Director, OPM, May 21, 2007.



                                                 5
                                                                                      09-P-0206


               Plans for System Upgrades

               EPA Requirements for Efficient SSCs. The Agency’s 2007 Business Case
               Study indicated conversion to an automated standard form 52 (SF-52) feature,
               known as “workflow,” and upgrades noted by Agency human resource
               officers, were necessary to realize greater efficiencies under EPA SSCs in the
               long run. EPA’s June 2007 HR-LoB SSC analysis recommended that EPA
               deploy workflow to facilitate and enable the internal operation of EPA SSCs.
               This analysis also indicated the Agency should consider the remainder of any
               prospective Fiscal Year (FY) 2008 development, modernization, and
               enhancement funding to address immediate workflow needs in preparing for
               migration

               PeoplePlus Limitations. EPA’s 2007 HR-LoB SSC analysis revealed
               another important factor confronting EPA in selecting a certified SSC: the
               ability to operate the PeoplePlus Time Reporting and Labor Distribution
               system as a “stand-alone” module within EPA while outsourcing the
               remainder of its HR IT systems to an outside provider. However, according to
               this analysis, employing this approach for migration would pose significant
               costs and technical risks to EPA. According to the HR-LoB SSC analysis, the
               risks would be driven by the required development of two-way interfaces
               between: (1) EPA’s retained PeopleSoft Time Reporting and Labor
               Distribution System; (2) the certified SSC HR IT system; (3) the Defense
               Finance Accounting Service (DFAS)-Defense Civilian Payroll System
               (assuming that EPA was to maintain DFAS as its payroll provider); and (4)
               the new EPA Financial Management system. This analysis also showed
               building and maintaining multiple interfaces and associated data feeds would
               exponentially increase the cost and technical burdens to EPA.

               Therefore, since 2007, OARM knew the risks of this strategy. The Assistant6
               Administrator’s May 2009 memorandum stated OARM is currently working
               with the Office of the Chief Financial Officer (OCFO) to meet requirements
               related to the Agency’s HR management system and expect to make a
               decision on a service provider and next steps during the fourth quarter of
               FY 2009. In June 2009, OARM management stated that EPA would continue
               to use PeoplePlus until OARM and OCFO could find an alternative for the
               system.

               OMB Requirements. Joint OMB/OPM guidance prohibits federal agencies
               from upgrading their HR management systems without first getting a waiver.
               The only exceptions are (1) for migrating to a certified public or private sector
               SSC under its HR-LoB initiative; or (2) if the agency can demonstrate that
               investing in a system limited to the agency’s own use and associated support
               represent a better value and lower risk alternative than migrating to a certified
               SSC.
6
    He was the Acting Assistant Administrator when he issued the comments.


                                                    6
                                                                   09-P-0206




OARM Pursued Upgrades Without Approval. An OARM manager
acknowledged that the list of upgrades from the human resource officers did
contain some items considered development, modernization, or enhancement,
and that these upgrades would not be implemented. However, this manager
stated that according to OARM, workflow features did not constitute
development, modernization, or enhancement, and the areas of PeoplePlus
that EPA would be customizing were operations and maintenance. However,
under OMB Circular A-11, Part 2, Section 53, the definition for development,
modernization, or enhancement covers “…the program cost for new
investments, changes or modification to existing systems to improve
capability or performance, changes mandated by... agency leadership…for…
direct support.” When informed, OARM’s former Assistant Administrator
disagreed with our assessment, stating in memorandum that his office did not
consider the work associated with enabling the workflow module in
PeopleSoft to be development, modernization, or enhancement, since the
Agency already owned it. However, based on OMB’s definition for
development, modernization, or enhancement, regardless of when the Agency
purchased the PeopleSoft software, OMB guidelines would prohibit changes
or modifications to improve PeoplePlus capability and performance through
developing the workflow module.

Results of HR Systems Upgrades. EPA pursued HR systems upgrades
although it did not obtain OMB approval to do so. As such, the success of
EPA’s SSCs was dependent on upgrades that the Agency did not have
permission to obtain. The failure to produce the upgrades leaves the EPA
SSCs without the tools to perform efficiently. In June 2009, OARM managers
stated that upgrading PeoplePlus was not cost-effective and OARM efforts to
develop the workflow module were unsuccessful. These managers also told
us that although the EPA SSCs were operational, they were not efficient
because they did not have some IT upgrades recommended in the 2007 study.
Specifically, OARM managers stated the SSCs were still performing manual
procedures to accomplish their mission.

Software Costs and Projected Savings

Workflow Costs. OARM’s initial costs for developing the workflow module
was $245,000, with deployment scheduled for May 2008. By September
2008, EPA’s estimated costs for development of the workflow module had
increased to $485,000, with deployment moved to early 2009. However, by
December 2008, OARM management began dismissing the importance of the
workflow module from earlier assessments but did not provide any
documented evidence or updated analysis supporting these assertions. We
found these assertions from OARM management to be unsubstantiated and
contradicted statements found in the Agency’s 2007 Business Case Study and
OARM’s own HR-LoB SSC analysis. Currently, OARM states that the



                                7
                                                                                09-P-0206


       selection criteria for a certified SSC will be the ability of a service provider to
       deliver anticipated automated workflow functionality. OARM has not
       provided the final costs incurred to develop workflow.

       PeoplePlus Costs. According to the PeoplePlus Contracting Officer
       Representative, EPA’s annual maintenance fee of $156,000 paid to the
       software vendor no longer included patches and fixes normally provided by
       the vendor to update or address new issues regarding security or stability
       problems with the existing software. Rather, the annual maintenance fees
       mainly afford the Agency the ability to “ask questions” on the functionality
       and limitations of the outdated PeopleSoft software. The Contracting Officer
       Representative stated the vendor requires that EPA upgrade its PeopleSoft
       software to version 8.9 or higher to maintain full vendor support and obtain
       access to patches and fixes.

       According to an OARM manager, regardless of the limitations of vendor
       support, the Agency still would need an operations and maintenance contract
       until the Agency decides that it would migrate PeoplePlus to a certified SSC.
       EPA issued a new operations and maintenance contract with a period of
       performance from August 29, 2008, through September 30, 2013. According
       to the contracting officer, the total award is $10,328,937 for the base period
       and four option years. There is also an additional $2,309,387 for optional
       systems development.

       Projected Savings. The Agency stated the consolidation effort was intended
       to align the Agency OMB’s HR-LoB initiative with an agreement with OMB
       to migrate to an OPM-certified public or private sector SSC providers starting
       in FY 2009. EPA’s June 2007 HR-LoB SSC analysis indicated the Agency
       may be able to reduce costs by $40-60 million over 10 years by outsourcing it
       HR management system to a certified SSC. OARM did not detail how it
       would achieve the savings. Currently, the Assistant Administrator stated that
       subsequent analysis (currently in draft) shows a significantly lower reduction
       in future IT costs as a result of a potential migration. The Assistant
       Administrator also stated OARM was finalizing its analysis of costs
       associated with migration, and expects to make a final decision on how to
       proceed in the fourth quarter of FY 2009.

New Plan and Challenges
       The OARM Assistant Administrator’s memorandum concluded that OARM
       and OCFO agreed that upgrading the EPA’s current system is not in the best
       interest of the Agency. EPA is now seeking to migrate the Agency’s HR IT
       services to an OPM-certified SSC provider.




                                          8
                                                                                  09-P-0206


              Selection Challenges

              According to EPA’s 2007 HR-LoB SSC Analysis, a certified SSC would need
              to provide functionality in the following critical areas:

                     Personnel Action Request Processing,
                     Integrated Workflow, including manager self-service,
                     Time Reporting and Labor Distribution, including an unlimited
                      number of time reporting codes, and,
                     Payroll (currently with the Defense Finance Accounting Service -
                      Defense Civilian Payroll System but EPA would consider integration
                      with another provider as an option).

              Funding Challenges

              Baseline Cost Estimate. OMB criteria requires federal agencies to develop
              comprehensive baseline cost estimates for investments to measure cost
              savings and plan for future costs associated with IT investments. 7 According
              to OARM management, both they and OCFO are still analyzing costs
              associated with migrating its HR-IT system capabilities to an OPM approved
              service provider. The Agency’s final decision on how to proceed is not
              expected until the fourth quarter of FY 2009. Prior Agency documentation in
              response to this OMB requirement was outdated (most recent was 2007), and
              did not represent current cost analysis associated with the Agency’s migration
              of its HR management system to an OPM-certified SSC.

              Migration is Not Funded. A significant issue facing the Agency with
              migration is funding. OARM managers told us funding for migration to a
              public or private sector SSC provider would probably not occur in FY 2009
              because no funding for it exists in the Agency’s FY 2009 budget. These
              managers stated that given the anticipated changeover in EPA’s
              administration, there were no assurances that funding for migration would be
              included in EPA’s FY 2010 budget plan. Consequently, the Agency needs to
              produce the baseline cost estimate to support migration funding in FY 2010.
              Otherwise EPA will continue to operate the current inefficient HR
              configuration for the foreseeable future.

Conclusion
              OARM lacked effective management controls over implementing SSCs.
              Although a previous EPA study had forecasted the risks of implementing the
              SSCs without adequate IT support, OARM chose the risky implementation
              strategy. OARM could provide no documented analysis showing that this and

7
    OMB Memorandum M-06-22, issued August 8, 2006.



                                                9
                                                                            09-P-0206


      another study was incorrect or no longer warranted. Rather, OARM managers
      stated that it had made the decision to implement the EPA SSCs to keep its
      own personnel. The OMB HR-LoB process allows agencies to keep their
      internal HR systems if they can show that it is more cost-effective than
      migration. However, EPA never produced documentation stating that OMB
      approved EPA’s limited migration plan or a baseline cost estimate that could
      show that EPA’s HR plan was cost effective. Consequently, OARM’s high
      risk attempt to provide the SSCs with the necessary HR IT has failed.

      In response to our draft report, the Agency responded that it is not in the best
      interest of the Agency nor cost effective to update the PeoplePlus system, its
      primary HR system. OARM management also informed us that the testing of
      an automated workflow model that was supposed to help achieve anticipated
      HR efficiencies has proven unsuccessful. The Agency has since abandoned
      this project. EPA spent considerable time and funds pursuing this former
      option. OARM management now indicates that the Agency still looks to find
      an OPM-approved HR-LoB vendor who can provide the required HR support.

Recommendations
      Therefore, we recommend that the Assistant Administrator for Administration
      and Resources Management:

         2-1     Obtain approval from OMB for the level of migration intended by
                 EPA to ensure that future EPA resource efforts are not spent on a
                 concept that OMB could reject.

         2-2     Develop an updated baseline cost estimate to determine and secure
                 necessary funding for migration to a certified SSC. The Agency
                 must fund the migration, which cannot occur without the baseline
                 cost estimate. Currently, OARM states there is no data to support
                 funding in EPA’s FY 2010 budget.

         2-3     Establish realistic milestone dates with OMB for migration to an
                 OPM- certified SSC. The FY 2009 date is not realistic because no
                 funding for migration exists.

         2-4     Document the risk of using PeoplePlus until EPA migrates to a
                 certified SSC. Due to budget issues, EPA may not migrate until
                 FY 2011.




                                       10
                                                                                               09-P-0206


Summary of Agency Response and OIG Evaluation
        The Assistant Administrator for OARM provided a memorandum of response to
        our draft report on May 29, 2009. The memorandum concluded that OARM and
        OCFO agreed that upgrading the EPA’s current system is not in the best interest
        of the Agency, and that it would be cost prohibitive to both upgrade the current
        system and migrate to a service provider in response to our draft
        recommendation.8 As such, the Agency is currently analyzing the costs associated
        with migrating its HR IT system capabilities to an OPM-approved service
        provider. The memorandum stated that OARM agreed that there may be
        increased risks to PeoplePlus security and stability because the vendor no longer
        supports the current version. However, the memorandum stated OARM
        management believes the overall security of PeoplePlus is sound and represents
        only a minimal acceptable risk to the Agency as it assesses the HR-LoB service
        center options. OARM management expects to make a final decision on a service
        provider and next steps for migration in the fourth quarter of FY 2009.

        As noted in our draft report, OARM lacked the analysis and OMB approvals to
        support its position to upgrade its HR systems. In 2007, the Agency had
        identified that an upgrade to PeoplePlus and other IT initiatives were necessary
        for the long-term success of the EPA SSCs. In June 2008, OARM established
        the EPA SSCs without obtaining the necessary IT upgrades. A key upgrade
        was the development of an automated business processing feature known as
        workflow to realize greater efficiencies under EPA SSCs. However, in
        June 2009, OARM managers stated their efforts to develop the workflow
        module were unsuccessful. These managers also told us that:

                Although the EPA SSCs were operational, without the IT upgrades they
                 were not efficient. Specifically, OARM managers stated the SSCs were
                 performing manual procedures to accomplish their mission.
                The Agency is now directing its attention toward selecting a certified SSC
                 provider to achieve HR efficiencies once expected from PeoplePlus and
                 the workflow module.
                They were still seeking only to use the providers systems because the
                 Agency still wanted to keep HR IT jobs at EPA.
                OMB was aware of EPA’s limited migration plans but could not provide
                 documentation that OMB had approved this concept.

        Where necessary, we made revisions to this report based on OARM’s comments.
        We have included the Agency’s entire response and the OIG’s evaluation as
        Appendix A.

8
  Our recommendation required OARM to (1) seek a waiver from OMB to upgrade PeoplePlus to regain
access to patches and fixes to ensure system security and stability; and, (2) to develop a baseline cost
estimate to determine and secure necessary funding for migration to a public or private sector SSC on a
revised date negotiated with OMB.



                                                    11
                                                                                                                          09-P-0206




                           Status of Recommendations and
                             Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1       Action Official          Date      Amount      Amount

    2-1       10    Obtain approval from OMB for the level of               O      Assistant Administrator
                    migration intended by EPA to ensure that future                 for Administration and
                    EPA resource efforts are not spent on a concept                Resources Management
                    that OMB could reject.
    2-2       10    Develop an updated baseline cost estimate to            O      Assistant Administrator
                    determine and secure necessary funding for                      for Administration and
                    migration to a certified SSC. The Agency must                  Resources Management
                    fund the migration, which cannot occur without the
                    baseline cost estimate. Currently, OARM states
                    there is no data to support funding in EPA’s FY
                    2010 budget.
    2-3       10    Establish realistic milestone dates with OMB for        O      Assistant Administrator
                    migration to an OPM certified SSC. The FY 2009                  for Administration and
                    date is not realistic because no funding for                   Resources Management
                    migration exists.
    2-4      10     Document the risk of using PeoplePlus until EPA         O      Assistant Administrator
                    migrates to a certified SSC. Due to budget issues,              for Administration and
                    EPA may not migrate until FY 2011.                             Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                         12
                                                                               09-P-0206


                                                                           Appendix A

           Agency Response to Draft Report and
                    OIG Evaluation

                                     May 29, 2009

MEMORANDUM

SUBJECT:      Response to Draft Report: Outdated Software Could Jeopardize
              Anticipated Efficiencies from EPA’s Human Resources Shared Service
              Centers

FROM:         Craig E. Hooks /s/
              Acting Assistant Administrator

TO:           Eric Lewis
              Product Line Director
              Office of Inspector General

        I appreciate the opportunity for OARM to comment on the Office of Inspector
General’s draft report dated April 29, 2009 and titled “Outdated Software Could
Jeopardize Anticipated Efficiencies from EPA’s Human Resources Shared Service
Centers”. While we recognize the issues you raise, we believe the overall security of
PeoplePlus is sound and represents a minimal risk to the Agency as we assess the Human
Resources Line of Business service center options. OARM is currently working closely
with OCFO to identify the best course of action for the Agency to meet requirements
related to HR, time and attendance, payroll, and labor distribution. We both agree that
upgrading PeoplePlus is not in the best interest for EPA and expect to make a decision on
a service provider and next steps during the 4th quarter of FY2009.

       Below are specific comments on the draft report:

At a Glance Section

Under background, the OIG writes “EPA has determined that upgrades to PeoplePlus
are paramount to successful implementation of the Agency’s SSC initiative.”

       We agree that upgrades to PeoplePlus would be beneficial and add to the success
       of the Shared Service Center implementation in terms of further streamlining
       business processes and reducing the total “time to hire”. Unfortunately, OMB and
       OPM restrictions have prevented OARM from enhancing or adding functionality.
       The Agency’s decision to consolidate HR transactional services under three
       Shared Service Centers was based on the expectations of not only improving



                                            13
                                                                              09-P-0206


      efficiencies but also improving the overall timeliness and quality of customer
      service by streamlining business processes and enacting standardized operating
      procedures. We believe that when the transition is complete, all of these goals
      will be met and we will provide Agency customers and the public they serve, a
      more efficient, cost effective, customer-oriented organization.

      OIG Evaluation

      EPA pursued HR systems upgrades ( i.e., the workflow module and other
      listed in the Agency’s 2007 Business Case Study deemed necessary if the
      EPA SSCs were to succeed and operate efficiently) although it did not
      obtain OMB approval to do so. As such, the successes of EPA’s SSCs
      were dependent on upgrades that the Agency did not have permission to
      obtain. The failure to produce the upgrades, in particular the workflow
      module, leaves the EPA SSCs without the tools to perform efficiently.

Chapter 2

             In the 1st paragraph the OIG states, “However, PeoplePlus faces increased
      risks to its security and stability because the software vendor no longer supports
      the current version, and has required that the Agency upgrade to a newer
      software version.”

      OARM Comment: While we agree that there may be increased risks to
      PeoplePlus security and stability because the vendor no longer supports the
      current version, we believe the increased risk is minimal and therefore acceptable
      at this time. Even though EPA is currently running the 8.3 version of PeopleSoft
      HRMS application software, the underlying component software is being patched,
      and kept at current release levels. These components are the focus of Computer
      Security Incident Response Capability (CSIRC) notices and result in system patch
      application. In addition, the PeoplePlus system is wholly contained behind the
      EPA firewall and Agency security systems. OARM believes the overall security
      of PeoplePlus is sound and running the current version represents a minimal risk
      to the Agency as we explore the various options for moving to an HR-LoB service
      center.

      OIG Evaluation

      OARM management is in agreement that there may be increased risks to
      PeoplePlus security and stability because the vendor no longer supports
      the current version. OARM management believes the increased risk is
      minimal and therefore acceptable at this time. During the exit conference
      with OARM managers in June 2009, the OIG requested a copy of the
      most recent risk assessment of PeoplePlus supporting this statement.
      These managers stated a risk assessment was almost finished and that
      the OIG would be provided a copy. However, the OIG had not received a



                                          14
                                                                          09-P-0206


copy by the time this final report was issued. We have recommended that
EPA document the risk of using PeoplePlus until EPA migrates to a
certified SSC.

       In the Funding Challenges section on page 10, the OIG states, “However,
OMB issued criteria in August 2006 that required Federal agencies to develop
comprehensive baseline cost estimates for investments to measure cost savings
and plan for future costs associated with IT investments. Further, this
memorandum provides an IT investment framework for determining the total cost
of projects, both government and contractor costs, based on costing
methodologies provided in OMB-Circular A-76. The Agency could not provide
documentation that they had met this requirement.”

OARM Comment: We have located in our files documentation that reflects the
Agency responded to this requirement. A copy of the submission to OMB is
attached.

OIG Evaluation

A review of the file documentation submitted to OMB revealed this
information was outdated (most recent was 2007), and did not represent
current cost analysis associated with the Agency’s migration to an OPM-
certified SSC. Consequently, the Agency needs to produce an updated
baseline cost estimate to support migration funding in FY 2010 or beyond.
Otherwise, EPA will continue to operate the current inefficient HR
configuration for the foreseable future.

       In the Conclusion and Recommendation section on page 11, the OIG
states, “…not realize $40-60 million in reduced costs through outsourcing its HR
management systems to a certified SSC, which according to EPA’s own analysis
can be achieved by eliminating heavy reliance on external contractors.”

OARM Comments: Since that initial analysis, EPA has continued to research and
update the costs associated with migrating to a certified line of business provider.
These subsequent analyses (currently in draft) show a significantly lower
reduction in future IT costs as a result of a potential migration. We are finalizing
our analysis at this time and are working with OCFO to determine the best system
for the Agency.

OIG Evaluation

EPA spent considerable time and funds pursuing their former option.
OARM management now indicates that the Agency still looks to find an
OPM-approved HR-LoB vendor who can provide the required HR support.
To help avoid a repeat occurrence, we have recommended that OARM
obtain documentation from OMB specifying the level of migration required



                                     15
                                                                          09-P-0206


from EPA to ensure that future EPA resource efforts are not spent on a
concept that OMB could reject.

       In the Conclusion and Recommendation section on page 11, the OIG
states, “Therefore, we recommend that the Assistant Administrator OARM:

       1. Seek a waiver from OMB to upgrade PeoplePlus to regain access to
       patches and fixes to ensure system security and stability.
       2. Develop a baseline cost estimate to determine and secure necessary
       funding for migration to a public or private sector SSC on a revised date
       negotiated with OMB.”

OARM Comments: We are currently analyzing the costs associated with
migrating our HR IT system capabilities to an OPM approved service provider.
We expect the Agency will make a final decision on how to proceed in the 4th
quarter FY 2009. OARM and OCFO agree that upgrading our current system is
not in the best interest of the Agency. Therefore, we do not agree with the
recommendation to both upgrade our current system and migrate to a service
provider. The resources needed to perform both of these tasks are cost prohibitive
and represent a duplicative effort, as well as doubling the time required to achieve
a final solution.

OIG Evaluation

In December 2008, OARM managers told us that EPA was considering
two options. The first option was to upgrade the current PeoplePlus-HR
software to PeopleSoft v. 9.0 to meet requirements by the software
vendor. For this option, we recommended that EPA obtain OMB approval
to upgrade HR systems. The second option was to migrate Agency HR IT
services to a public or private sector HR SSC provider. For this option, we
recommended that EPA develop a baseline cost analysis to determine the
cost of the option and to obtain the funding necessary for migration. The
Agency indicated it will now pursue the second option, to find an OMB-
certified HR-LoB provider for the necessary HR IT support. Because of
this decision the original 1st recommendation has been removed. We
concur with the Agency’s decision to migrate to a certified HR-LoB
provider since it cannot justify upgrading PeoplePlus. We have developed
recommendations to assist the Agency in this effort to ensure that future
EPA resource efforts are not spent on a concept that OMB could reject;
develop an updated baseline cost estimate to determine and secure
necessary funding for migration to an OPM-certified SSC; and establish
realistic milestone dates with OMB for migration to an OPM-certified SSC.

If you have any questions, please contact Sherry Kaschak, Director, Office of
Policy and Resources Management or Susan Kantrowitz, Deputy Director, Office
of Human Resources. I look forward to discussing this issue further during the



                                    16
                                                                             09-P-0206


      exit conference and working with the Office of Inspector General to ensure the
      Agency moves forward in the best approach.

Attachments (2)

      1- Actual Cost Reporting September 2007
      2- Baseline Cost Reporting - August 2006




                                         17
     09-P-0206




18
     09-P-0206




19
                                                                          09-P-0206


                                                                      Appendix B

                               Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Acting Chief Financial Officer
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                        20
